App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
--------------------------------------------

No. 19-50506
--------------------------------------------

TAYLOR LOHMEYER LAW FIRM P.L.L.C.,
Plaintiff - Appellant
v.
UNITED STATES OF AMERICA,
Defendant - Appellee
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Western District of Texas
-----------------------------------------------------------------------

(Filed Apr. 24, 2020)
Before BARKSDALE, HIGGINSON, and DUNCAN,
Circuit Judges.
RHESA HAWKINS BARKSDALE, Circuit Judge:
At issue is whether the district court erred by
granting the Government’s counter petition to enforce
a summons issued to Taylor Lohmeyer Law Firm
P.L.L.C. (Firm), notwithstanding the Firm’s blanket
claim that all documents responsive to the summons
are protected by the attorney-client privilege. AFFIRMED.

App. 2
I.
The Firm, located in Kerrville, Texas, provides estate- and tax-planning advice to its clients. In October
2018, the Internal Revenue Service (IRS) served a
John Doe summons on the Firm, seeking documents
for “John Does”, U.S. taxpayers,
who, at any time during the years ended December 31, 1995[,] through December 31,
2017, used the services of [the Firm] . . . to acquire, establish, maintain, operate, or control
(1) any foreign ﬁnancial account or other asset; (2) any foreign corporation, company,
trust, foundation or other legal entity; or (3)
any foreign or domestic ﬁnancial account or
other asset in the name of such foreign entity.
A John Doe summons is “[a]ny summons described
in [26 U.S.C. § 7609(c)(1) (covered summonses)] which
does not identify the person with respect to whose liability the summons is issued”. 26 U.S.C. § 7609(f ) (Internal Revenue Code’s special procedures for John Doe
summonses). Issuing a John Doe summons ﬁrst requires an ex parte court proceeding, in which the Government establishes: “(1) the summons relates to the
investigation of a particular person or ascertainable
group or class of persons”; “(2) there is a reasonable basis for believing that such person or group or class of
persons may fail or may have failed to comply with any
provision of any internal revenue law”; and “(3) the information sought to be obtained from the examination
of the records or testimony (and the identity of the
person or persons with respect to whose liability the

App. 3
summons is issued) is not readily available from other
sources”. Id.; see also id. § 7609(h)(2) (requiring the
proceeding be ex parte). The Government successfully
made this showing at an October 2018 hearing, prior
to issuing the summons to the Firm.
The Government sought documents from the Firm
based on the 2018 declaration of IRS Agent RussellHendrick, “an Offshore Special Matters Expert in the
[IRS’] Special Enforcement Program”, which “identiﬁes and examines [U.S.] taxpayers involved in abusive
transactions and other financial arrangements for
the purpose of avoiding U.S. taxes”. Agent RussellHendrick has submitted two supporting declarations
for the Government in this case: the above-described
declaration in 2018, prior to the ex parte proceeding;
and the other in 2019, attached to the Government’s
counter petition. The following is from the Agent’s 2019
declaration.
The Government “is conducting an investigation
to determine the identity and correct federal income
tax liability of U.S. taxpayers for whom [the Firm] acquired or formed any foreign entity, opened or maintained any foreign ﬁnancial account, or assisted in the
conduct of any foreign ﬁnancial transaction”. The investigation arose because, during the IRS’ audit of one
U.S. taxpayer (Taxpayer-1), its investigation “revealed
that Taxpayer-1 hired [the Firm] for tax planning,
which [the Firm] accomplished by (1) establishing foreign
accounts and entities, and (2) executing subsequent
transactions relating to said foreign accounts and entities”. Additionally, “[f ]rom 1995 to 2009, Taxpayer-1

App. 4
engaged [the Firm] to form 8 offshore entities in the
Isle of Man and in the British Virgin Islands” and “established at least 5 offshore accounts so [Taxpayer-1]
could assign income to them and, thus, avoid U.S. income tax on the earnings”. “In June 2017, [however,]
Taxpayer-1 and his wife executed a closing agreement
with the IRS in which they admitted that Taxpayer-1
. . . earned unreported income of over $5 million for the
1996 through 2000 tax years, resulting in an unpaid
income tax liability of over $2 [m]illion.”
“Ultimately, Taxpayer-1 paid almost $4 million to
the IRS to resolve his unpaid federal tax, interest, and
penalties for those tax years.” Consequently, the John
Doe summons at issue here
seeks records that may reveal the identity and
international activities of certain clients of
[the Firm], from January 1, 1995, through December 31, 2017. This information may be relevant to the underlying IRS investigation into
the identity and correct federal income tax
liability of U.S. persons who employed [the
Firm] to conceal unreported taxable income in
foreign countries. In particular, the IRS is
seeking information on U.S. taxpayers for
whom [the Firm] created and maintained foreign bank accounts and foreign entities that
may not be properly disclosed on tax returns.
After receiving the Government’s summons, the
Firm ﬁled in federal district court a petition to quash
the summons on various grounds, asserting “the summons is overbroad and represents an unprecedented

App. 5
intrusion into the attorney-client relationship and is
plainly abusive”. Regarding attorney-client privilege,
the Firm claimed that, despite the general rule a lawyer’s clients’ identities are not covered by the privilege,
an exception to that rule exists whereby “a client’s
identity is protected by the attorney-client privilege
if its disclosure would result in the disclosure of a
confidential communication”. Accordingly, the Firm asserted the exception applies here, rendering all documents requested in the summons protected by the
privilege.
The Government responded by ﬁling a motion to
dismiss the petition to quash and a counter petition
to enforce the summons. Although the Government
contended the Firm’s petition was “jurisdictionally
deficient”, which supported the petition’s dismissal,
it highlighted that the petition itself “indicate[d] an
unwillingness to comply with the summons” and supported enforcing it. As relevant here, the Firm responded to the Government’s motion and counter
petition, and the Government ﬁled a reply.
At an April 2019 status hearing to discuss the
pending ﬁlings, the court, with the parties’ agreement,
proceeded directly with the Government’s counter petition. The counter petition was granted on 15 May
2019, with the court’s ruling, inter alia: “blanket assertions of privilege are disfavored, the Firm bears a
heavy burden at this stage, and the Firm relies only on
a narrowly deﬁned exception to the general rule that
identities are not privileged[; therefore,] the Firm does
not carry its burden”. Moreover, the court noted in its

App. 6
order that, “if [the Firm] wishes to assert any claims of
privilege as to any responsive documents, it may . . . do
so, provided that any such claim of privilege is supported by a privilege log which details the foundation
for each claim on a document-by-document basis”. Finally, the court stated it would “retain jurisdiction in
th[e] case pending any challenges by the Government
of the Firm’s privilege log, should the Firm produce
one”.
II.
In challenging the court’s ruling, the Firm presents only its contentions as to attorney-client privilege. The district court, upon the Firm’s motion, has
stayed its proceedings pending this appeal. In doing so,
the court stated: “The Firm produced no privilege log,
so there is no longer a need for this Court to retain jurisdiction. Accordingly, the Clerk’s ofﬁce is directed to
CLOSE this case”.
“[A] district court order enforcing an IRS summons is an appealable ﬁnal order”. Church of Scientology v. United States, 506 U.S. 9, 18 n.11 (1992) (citation
omitted). The party challenging the summons may do
so “on any appropriate ground”, including because the
information sought “is protected by the attorney-client
privilege”. Reisman v. Caplin, 375 U.S. 440, 449 (1964)
(citation omitted).
But “[r]eview of a district court’s determination
with respect to the attorney-client privilege, even on
direct appeal, . . . is limited”. In re Avantel, S.A., 343

App. 7
F.3d 311, 318 (5th Cir. 2003). “The application of the
attorney-client privilege is a question of fact, to be determined in the light of the purpose of the privilege
and guided by judicial precedents.” EEOC v. BDO USA,
L.L.P., 876 F.3d 690, 695 (5th Cir. 2017) (internal quotation marks and citations omitted). “In evaluating a
claim of attorney-client privilege, [our court] review[s]
factual ﬁndings for clear error and the application of
the controlling law de novo.” In re Itron, Inc., 883 F.3d
553, 557 (5th Cir. 2018) (italics added) (internal quotation marks and citation omitted).
In this instance, of course, federal privilege-law
applies. See, e.g., Avantel, 343 F.3d at 323 (citation
omitted). In that regard, for the attorney-client privilege to protect from disclosure, either in whole or in
part, a document responsive to the Government’s summons in this case, the Firm must establish that the
document contains a conﬁdential communication, between it and a client, made with the client’s “primary
purpose” having been “securing either a legal opinion
or legal services, or assistance in some legal proceeding”. BDO USA, 876 F.3d at 695 (citation omitted). “Because the attorney-client privilege has the effect of
withholding relevant information from the fact-ﬁnder,
it is interpreted narrowly so as to apply only where
necessary to achieve its purpose.” Id. (alteration, internal quotation marks, and citation omitted). Construing
the privilege narrowly is particularly important with
IRS investigations because of the “congressional policy
choice in favor of disclosure of all information relevant
to a legitimate IRS inquiry”. United States v. Arthur

App. 8
Young & Co., 465 U.S. 805, 816-17 (1984) (emphasis in
original) (citations omitted).
As discussed in part, “[d]etermining the applicability of the privilege is a highly fact-speciﬁc inquiry,
and the party asserting the privilege bears the burden
of proof ’. BDO USA, 876 F.3d at 695 (internal quotation marks and citations omitted). In that regard,
“[a]mbiguities as to whether the elements of a privilege claim have been met are construed against the
proponent”. Id. (citation omitted). Additionally, as a
general rule, “the attorney-client privilege may not be
tossed as a blanket over an undifferentiated group of
documents”. United States v. El Paso Co., 682 F.2d 530,
539 (5th Cir. 1982) (citations omitted). Instead, “[t]he
privilege must [generally] be speciﬁcally asserted with
respect to particular documents”. Id.; see also United
States v. Davis, 636 F.2d 1028, 1038-39 (5th Cir. 1981)
(“It is generally agreed that the recipient of a summons
properly should appear before the issuing agent and
claim privileges on a question-by-question and document-by-document basis.” (citations omitted)).
Moreover, “[a]s [another] general rule, client identit[ies] and fee arrangements are not protected as privileged”. In re Grand Jury Subpoena for Attorney
Representing Criminal Defendant Reyes-Requena, 926
F.2d 1423, 1431 (5th Cir. 1991) (Reyes-Requena II) (citation omitted). That said, a “narrow exception” exists
“when revealing the identity of the client and fee arrangements would itself reveal a confidential communication”. Id. (citation omitted). This “limited and
rarely available sanctuary, which by virtue of its very

App. 9
nature must be considered on a case-to-case basis”,
recognizes that “[u]nder certain circumstances, an
attorney must conceal even the identity of a client,
not merely his communications, from inquiry”. United
States v. Jones (In re Grand Jury Proceedings), 517
F.2d 666, 671 (5th Cir. 1975) (citation omitted).
The exception, however, does not expand the scope
of the privilege; it does not apply “independent of the
privileged communications between an attorney and
his client”. In re Grand Jury Subpoena for Attorney
Representing Criminal Defendant Reyes-Requena,
913 F.2d 1118, 1124 (5th Cir. 1990) (emphasis added).
Rather, a client’s identity is shielded “only where revelation of such information would disclose other privileged communications such as the conﬁdential motive
for retention”. Id. at 1125 (citation omitted). In that regard, the privilege “protect[s] the client’s identity and
fee arrangements in such circumstances not because
they might be incriminating but because they are connected inextricably with a privileged communication—
the conﬁdential purpose for which [the client] sought
legal advice”. Reyes-Requena II, 926 F.2d at 1431 (emphasis added).
Because the Firm contends this case falls within
this exception to the general rule that a law ﬁrm’s
clients’ identities are not protected by the attorneyclient privilege, it asserts: “[a]s a matter of law, all
documents responsive to the summons are privileged”;
and the district court erred in concluding otherwise.
To support its position, the Firm relies on, inter alia,

App. 10
Reyes-Requena II and United States v. Liebman, 742
F.2d 807 (3d Cir. 1984).
As discussed, our court made clear in ReyesRequena II that, “[i]f the disclosure of the client’s identity will also reveal the conﬁdential purpose for which
he consulted an attorney, we protect both the conﬁdential communication and the client’s identity as privileged”. Reyes-Requena II, 926 F.2d at 1431. And, as
stated, “[w]e protect the client’s identity and fee arrangements in such circumstances not because they
might be incriminating but because they are connected
inextricably with a privileged communication—the
conﬁdential purpose for which [the client] sought legal
advice”. Id. The Firm asserts such an inextricable connection is present here.
In Liebman, the third circuit, in applying the relevant exception to the general attorney-client privilege
rule for client identities, determined:
The afﬁdavit of the IRS agent supporting the
request for [a John Doe] summons not only
identiﬁes the subject matter of the attorneyclient communication, but also describes its
substance. That is, the afﬁdavit does more
than identify the communications as relating
to the deductibility of legal fees paid to [the
ﬁrm] in connection with the acquisition of a
real estate partnership interest. It goes on to
reveal the content of the communication,
namely that “taxpayers . . . were advised by
[the firm] that the fee was deductible for
income tax purposes.” Thus, this case falls

App. 11
within the situation where “so much of the actual communication had already been established, that to disclose the client’s name would
disclose the essence of a conﬁdential communication. . . .”
Liebman, 742 F.2d at 809 (alterations added) (citations
omitted). Along that line, the Firm contends: Agent
Russell-Hendrick’s 2018 declaration, like that of the
IRS agent in Liebman, establishes the Government already knows the content of the legal advice the Firm
provided the Does; and, if the Firm is “required to identify [its] clients as requested, that identity, when combined with the substance of the communication . . .
that is already known, would provide all there is to
know about a conﬁdential communication between the
taxpayer-client and the attorney”, breaching the attorney-client privilege. See id. at 810.
Both cases, however, are distinguishable. In ReyesRequena II, which involved whether a defense attorney
was required “to reveal the identity of an anonymous
third[-]party benefactor who paid the attorney’s fees
for [a] drug defendant”, both the district court and our
court, unlike in this case, inspected sealed documents
relevant to the privilege claim. Reyes-Requena II, 926
F.2d at 1425, 1428, 1432 (citations omitted). Moreover,
the benefactor whose identity was at issue intervened
in the case, and the district court determined, “[r]elying upon the sealed afﬁdavits presented in camera”,
that: “an attorney/client privilege existed between
[the defense attorney] and Intervenor . . . and . . . the
relationship was ongoing”; “Intervenor retained [the

App. 12
defense attorney] to represent [the criminal defendant] and Intervenor jointly for a conﬁdential purpose”;
and “if [the defense attorney] were to reveal the Intervenor’s identity, Intervenor’s conﬁdential motive for retaining [the defense attorney] would be exposed as
apparent”. Id. at 1428 (emphasis in original) (citations
omitted). It was under these speciﬁc circumstances,
not present here, that the district court found, and
our court agreed, the intervening client’s “confidential motive for consulting [the defense attorney] was
intertwined inextricably with his identity and fee arrangements”. Id. at 1431 (citation omitted).
In Liebman, the IRS agent’s declaration explicitly
identiﬁed taxpayers’ communications “as relating to
the deductibility of legal fees paid to [the firm] in
connection with the acquisition of a real estate partnership interest” and that, as the defendant ﬁrm conceded, “taxpayers . . . were advised by [the ﬁrm] that
the fee was deductible for income tax purposes”. Liebman, 742 F.2d at 809 (alteration in original) (citations
omitted). The IRS contended the fee was not deductible, and the John Doe summons at issue in that case,
therefore, sought identity information explicitly for the
discrete subset of clients “who paid fees in connection
with the acquisition of real estate partnership interests”. Id. at 808 (citation omitted). “Because the IRS
request was limited to the group of persons who paid
for speciﬁc investment advice, the IRS would automatically identify those who were told they could make the
questionable deductions”, and this “would [have] provide[d] all there [was] to know about a conﬁdential

App. 13
communication between the taxpayer-client and the
attorney[,] . . . breach[ing] the attorney-client privilege
to which that communication [was] entitled”. Id. at
809-10 (emphasis added).
Importantly, however, and contrary to the Firm’s
contention, Agent Russell-Hendrick’s 2018 declaration
did not state the Government knows the substance of
the legal advice the Firm provided the Does. (Nor, for
that matter, does her 2019 declaration.) Rather, it outlined evidence providing a “reasonable basis”, as required by 26 U.S.C. § 7609(f ), “for concluding that the
clients of [the Firm] are of interest to the [IRS] because
of the [Firm’s] services directed at concealing its clients’ beneﬁcial ownership of offshore assets”. The 2018
declaration also made clear that “the IRS is pursuing
an investigation to develop information about other
unknown clients of [the Firm] who may have failed to
comply with the internal revenue laws by availing
themselves of similar services to those that [the Firm]
provided to Taxpayer-1”. (Emphasis added.) Therefore,
unlike the declaration in Liebman, neither of the
Agent’s declarations in this case identiﬁed speciﬁc,
substantive legal advice the IRS considered improper
and then supported the Government’s effort to receive
the identities of clients who received that advice. See
Liebman, 742 F.2d at 809.
Instead, the John Doe summons at issue seeks,
inter alia: documents “reﬂecting any U.S. clients at
whose request or on whose behalf [the Firm] ha[s] acquired or formed any foreign entity, opened or maintained any foreign ﬁnancial account, or assisted in the

App. 14
conduct of any foreign financial transaction”; “[a]ll books,
papers, records, or other data . . . concerning the provision of services to U.S. clients relating to setting up
offshore ﬁnancial accounts”; and “[a]ll books, papers,
records, or other data . . . concerning the provision of
services to U.S. clients relating to the acquisition, establishment or maintenance of offshore entities or
structures of entities”. (Emphasis added.) As the Government asserted, this broad request, seeking relevant
information about any U.S. client who engaged in any
one of a number of the Firm’s services, is not the same
as the Government’s knowing whether any Does engaged in allegedly fraudulent conduct, or the content
of any speciﬁc legal advice the Firm gave particular
Does, and then requesting their identities.
This is particularly true given statements made by
Fred Lohmeyer, one of the Firm’s name partners, in his
declaration attached to the Firm’s memorandum supporting its petition to quash the summons. He stated
the Firm’s other clients “ha[ve] facts that are distinguishable from” those of Taxpayer-1 “because[,] to the
best of [his] knowledge, [the Firm] never advised any
other client with respect to the treatment of earned income as income earned by a foreign corporation”. This
undermines the Firm’s contention that the Government knows the substantive content of legal advice the
Firm gave the Does.
In that regard, the circumstances here, as contended by the Government, are more like those in
United States v. BDO Seidman, 337 F.3d 802 (7th Cir.
2003). That case involved unnamed clients of a public

App. 15
accounting and consulting firm seeking to intervene
in an IRS enforcement action against the ﬁrm “to assert a conﬁdentiality privilege regarding certain documents that [the ﬁrm] intended to produce in response
to [IRS] summonses . . . because the[ ] documents reveal[ed] their identities as [ﬁrm] clients who sought
advice regarding tax shelters and who subsequently
invested in those shelters”. Id. at 805-06. According to
the clients, disclosing their identities “inevitably would
violate the statutory privilege [26 U.S.C. § 7525] protecting conﬁdential communications between a taxpayer and any federally authorized tax practitioner
giving tax advice”. Id. at 806 (citation omitted).
BDO Seidman, of course, does differ in some respects from this case. Namely, the clients sought to intervene in BDO Seidman (in which the IRS targeted
the ﬁrm’s, not the clients, compliance with the Internal
Revenue Code); and a statutory, not the attorney-client, privilege, was at issue. See id. at 805-06. Critically,
however, the statutory privilege was modeled after the
attorney-client privilege, including its rule that “ordinarily the identity of a client does not come within the
scope of the privilege” and its “limited exception” allowing that “the identity of a client may be privileged in
the rare circumstance when so much of an actual conﬁdential communication has been disclosed already
that merely identifying the client will effectively disclose that communication”. Id. at 810-11 (citations
omitted). Ultimately, the seventh circuit’s rationale in
analyzing the privilege claim on the facts of the case
before it, and afﬁrming the district court’s denial of the

App. 16
clients’ motions to intervene, is instructive: “[d]isclosure of the identities of the Does will disclose to the
IRS that the Does participated in one of the 20 types
of tax shelters described in its summonses”; but, “[i]t is
less than clear . . . as to what motive, or other conﬁdential communication of tax advice, can be inferred from
that information alone”. See id. at 812-13.
The same is true here: disclosure of the Does’ identities would inform the IRS that the Does participated
in at least one of the numerous transactions described
in the John Doe summons issued to the Firm, but “[i]t
is less than clear . . . as to what motive, or other conﬁdential communication of [legal] advice, can be inferred from that information alone”. See id. at 812.
Consequently, the Firm’s clients’ identities are not
“connected inextricably with a privileged communication”, and, therefore, the “narrow exception” to the
general rule that client identities are not protected
by the attorney-client privilege is inapplicable. See
Reyes Requena II, 926 F.2d at 1431 (citations omitted).
III.
For the foregoing reasons, the 15 May 2019 enforcement order is AFFIRMED.

App. 17
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
TAYLOR LOHMEYER
LAW FIRM PLLC,
Petitioner,
v.
UNITED STATES
OF AMERICA,
Respondent

§
§
§
§
§
§
§
§
§

Civil Action No.
SA-18-CV-1161-XR

ORDER
(Filed May 19, 2019)
On this date, the Court considered the status of
this case. On November 6, 2018, Petitioner Taylor
Lohmeyer Law Firm PLLC ﬁled a petition to quash an
IRS summons. Docket no. 1. The United States, as Respondent, ﬁled a motion to dismiss this petition to
quash and a counter-petition to enforce the summons.
Docket no. 4. At the April 11 status conference, the parties agreed, for efﬁciency’s sake, to proceed only as to
the counter-petition to enforce. Having considered the
original petition (docket no. 1), the counter-petition
(docket no. 4), the Firm’s response (docket no. 5), the
Government’s reply (docket no. 7), the Firm’s supporting memorandums (docket nos. 8, 9), and the Government’s responses to these memorandums (docket nos.
11, 12), the Court GRANTS the Government’s counterpetition to enforce.

App. 18
BACKGROUND
This case is about the Internal Revenue Service’s
attempt to seek by John Doe summons certain information related to the clients of Taylor Lohmeyer Law
Firm PLLC (“the Firm”), including the clients’ names.
The Firm is the Kerrville estate-planning practice of
Fred Lohmeyer and, until his death in 2016, John
Taylor. The IRS previously audited a taxpayer (Taxpayer-1) who used the Firm to “set up foreign accounts,
foreign trusts, and foreign corporations to avoid paying U.S. taxes for which he was liable.” Docket no. 4 at
7. This audit led to a closing agreement with Taxpayer-1 “admitting an unpaid income tax liability of
over $2 million from unreported income of over $5
million for the 1996 through 2000 years, as well as
additional penalties (including civil fraud penalties)
from foreign entities set up and managed by Taylor
Lohmeyer.” Id.
Here, the IRS seeks names of and other information related to the Firm’s clients between 1995-2017
to investigate the tax liability of those who used the
Firm to “create and maintain foreign bank accounts
and foreign entities that may have been used to conceal taxable income in foreign countries.” Id. at 8. The
Government undertakes this investigation, it states,
because offshore tax evasion usually involves a foreign
ﬁnancial account and an offshore entity controlled by
nominee directors to hide the taxpayers’ beneﬁcial
ownership. Id. at 7.

App. 19
Before this John Doe summons could issue, the
Government was required to make certain showings in
an ex parte proceeding before this Court. See 5:18-MC1046-XR. On October 15, 2018, the Court found that
the Government had made these showings. On November 6, 2018, the Firm brought this suit as a petition to
quash the summons, and on February 13, 2019, the
Government brought the motion to dismiss the petition to quash and counter-petition to enforce that is
now before the Court. The Government met its burden
at the ex parte proceeding and attempts to meet its burden here with the declarations of Revenue Agent Joy
Russell-Hendrick.
DISCUSSION
I.

Applicable Law

Before a third-party John Doe summons like this
one can be issued, there must be a court proceeding in
which the United States establishes that:
(1) the summons relates to the investigation
of a particular person or ascertainable group
or class of persons,
(2) there is a reasonable basis for believing
that such person or group or class of persons
may fail or may have failed to comply with
any provision of any internal revenue law, and
(3) the information sought to be obtained
from the examination of the records or testimony (and the identity of the person or persons with respect to whose liability the

App. 20
summons is issued) is not readily available
from other sources.
26 U.S.C. § 7609(f ).
The Court, in ordering service of the summons in
the earlier ex parte proceeding, made these three ﬁndings. Importantly, these ﬁndings are not subject to
challenge in an enforcement proceeding—they relate
only to issuance of the summons. See United States v.
Samuels, Kramer & Co., 712 F.2d 1342, 1346 (9th Cir.
1983) (“[T]he three factual determinations that a district court must make under section 7609(f) before
issuing its ex parte authorization of a John Doe summons may not be challenged. There is, therefore, no
reason why these factual determinations should be
subject to de novo review at an enforcement hearing.”)
Then, to enforce the summons, the Government’s
burden “is a slight one because the statute must be
read broadly in order to ensure that the enforcement
powers of the IRS are not unduly restricted.” United
States v. Balanced Fin. Mgmt., Inc., 769 F.2d 1440,
1443 (10th Cir. 1985). “The government’s minimal burden at this stage can be fulﬁlled by a ‘simple afﬁdavit’
by the IRS agent issuing the summons.” Mazurek v.
United States, 271 F.3d 226, 230 (5th Cir. 2001). Under
the Supreme Court’s decision in United States v. Powell, 379 U.S. 48, 57-58 (1964), the Government must establish that the summons: (1) is issued for a legitimate
purpose; (2) seeks information which may be relevant
to that purpose; (3) seeks information that is not already within the IRS’s possession; and (4) satisﬁes all

App. 21
administrative steps required by the Internal Revenue
Code.
If the Government makes out its case, the burden
shifts to the Firm to challenge the case on “any appropriate ground.” Powell, 85 S.Ct. at 255. Thus, the burden shifts to the Firm: “(1) to show the Government has
failed to meet its burden under Powell; (2) to assert
and prove that enforcement would constitute an abuse
of the court’s process; or (3) to show any other appropriate ground under which the summons should not be
enforced.” United States v. Battle, 213 F. App’x 307,
309-10 (5th Cir. 2007). “An abuse of the judicial process
occurs when the summons is sought for an ‘improper
purpose, such as . . . harass[ing] the taxpayer, . . .
put[ting] pressure on him to settle a collateral dispute’
or obtaining information solely for a criminal prosecution under the guise of a civil liberty investigation.”
Johnson v. United States, 2006 WL 505844, at *2 (W.D.
Tex. Jan. 3, 2006) (citing Mazurek, 271 F.3d at 230-31).
Contrary to the IRS’s minimal burden, Petitioner’s
burden to rebut a Powell prima facie case is “heavy”.
Id.
II.

Application

Here, the Government makes out a prima facie
case and the Firm, despite its arguments regarding
abuse of process and attorney-client privilege, does not
meet its “heavy” rebuttal burden.

App. 22
a. The Government’s prima facie case under Powell
The U.S. makes out its prima facie case using
the afﬁdavit of Revenue Agent Joy Russell-Hendrick.
Docket no. 4-1. First, she states the legitimate purpose
stems from the widespread practice of using offshore
entities and foreign ﬁnancial accounts for offshore tax
evasion. And because the IRS’s evaluation of Taylor
Lohmeyer revealed the Firm played a key role in helping taxpayers operate offshore, she states, the IRS began investigating the identity and correct income tax
liability of those who used the Firm to hide unreported
taxable income. Second, she states the summons seeks
information relevant to this purpose because it seeks
records that may reveal the identities and international activities of certain clients of the Firm between
1995 and 2017. Third, the IRS does not have this information, and fourth, Russell-Hendrick states all required administrative steps were taken. Given the
Government’s “slight” burden, which can be met by
“simple afﬁdavit,” the Government easily makes out a
prima facie case.
b. The Firm’s attempts to meet its ‘heavy’
burden
The burden then shifts to the Firm to rebut this
case, show an abuse of process, or argue any appropriate ground. Generally, the Firm’s arguments throughout the proceeding center on inaccuracies it perceives
in the narrative presented in the Russell-Hendrick afﬁdavit used to support issuance of the summons. The

App. 23
Court interprets this both as an attack on the ﬁndings
made in the ex parte proceeding and an argument that
the Government abused the Court’s process in that
proceeding.
As stated above, however, the afﬁdavit in question
is only relevant to the necessary ﬁndings for issuing a
John Doe summons, and the Court already found that
the government met its burden. The Firm cannot now
challenge those ﬁndings. Even if it could, the afﬁdavit
amply justiﬁes the necessary ﬁndings. There is clearly
an ascertainable group (ﬁrm clients between 1995 and
2017) and the information sought (these clients’ identities) is not readily available elsewhere. As to the remaining required ﬁnding, a central argument in the
Firm’s response—that there is no meaningful connection between the Firm’s representation of these clients
and the IRS’s enforcement action against one client—
is best interpreted as challenging the reasonable basis
for believing that this group may have failed to comply
with internal revenue law.
But the bar for “reasonable basis” is not high and
the afﬁdavit of Russell-Hendrick from the ex parte proceeding establishes a reasonable basis. She details her
conclusion that Taxpayer-1 concealed his connection to
offshore structures—for which Taxpayer-1 remained
the beneﬁcial owner—created under the advice of the
ﬁrm. Taxpayer-1 entered an agreement with the IRS in
June 2017, admitting that Taxpayer-1 owned all assets
owned by the offshore trusts and earned over $5 million in unreported income between 1996 and 2000.
Taxpayer-1 accepted liability for civil fraud penalties

App. 24
and penalties for failing to ﬁle the required forms for
reporting foreign income.
Russell-Hendrick then states the basis for her
opinion that the Firm provided similar advice to other
clients. Among other pieces of evidence, she states that
in an interview with John Taylor, former partner of
the ﬁrm, Taylor estimated that he structured offshore
entities for tax purposes for 20 to 30 clients between
the 1990s and early 2000s. Russell-Hendrick, states in
part that:
Taylor Lohmeyer PLLC’s services to their
U.S. clients, as described by Taxpayer-I and
Taylor himself, are the kinds of activities that,
in the experience of the IRS, are hallmarks of
offshore tax evasion, including: (1) structures
of offshore trusts with compliant trustees, and
foundations and anonymous corporations
managed by nominee ofﬁcers and directors,
(2) the use of “straw men” to contribute nominal funds to foreign trusts to create the false
appearance that such trusts have foreign
grantors, and (3) the concealment of beneﬁcial
ownership of foreign accounts and assets in
jurisdictions with strong ﬁnancial secrecy
laws and practices.
The information obtained by the IRS and
discussed in this Declaration suggests that
the still-unknown U.S. taxpayers doing business with Taylor Lohmeyer PLLC may not
have reported their offshore accounts, entities, or structures. Instead, they have likely
relied on the assistance of Taylor, and the fact

App. 25
the structures are hidden offshore to support
a decision not to report the existence of those
entities and accounts, expecting that the IRS
would not discover the accounts, omitted income, and/or the existence of the entities.
18-MC-1046, docket no. 1-2 at 37. Thus, assuming for
argument that the Firm could challenge the ex parte
proceeding at this stage, issuance was proper.
Next, the Firm argues that the Russell-Hendrick
afﬁdavit in the ex parte proceeding is “replete with misrepresentations and inaccuracies demonstrating a serious abuse of the summons process.” Docket no. 1 at 4.
The Firm argues these alleged misrepresentations are
“cooked up . . . to support [Russell-Hendrick’s] erroneous conclusion that Taylor Lohmeyer was providing illegal services to other U.S. clients.” Id. at 9. These
alleged misrepresentations are, for example, the conclusion that “[o]n the advice of Taylor that no income
was reportable from the offshore arrangement, Taxpayer-1 never told his return preparer about the offshore structure or the incentive fees.” Id. at 8 (other
allegedly unsupported representations are presented
on pages 4-11). The Firm contends Russell-Hendrick
cites no source to support her inference, and argues
that had Taxpayer-1 followed the advice given “there
would have been a lawful position that no income was
reportable . . . [but] the taxpayer obviously did not follow the lawful advice he followed.” Id.
Further, the Firm argues that Lohmeyer “has
reviewed his remaining client files and has determined that they are distinguishable from Taxpayer-1”

App. 26
because unlike with Taxpayer-1, “there is no evidence
that any of the remaining taxpayers disregarded Taylor Lohmeyer’s advice regarding the proper structure
and maintenance of foreign grantor trusts.” Id. at 11.
All told, the Firm argues the alleged misrepresentations and the fact that the remaining clients are distinguishable from Taxpayer-1 means enforcement of
the summons is an abuse of process and the ﬁrst two
Powell factors are not met. As to the Powell factors,
these arguments do not rebut the government’s showing that investigating offshore tax evasion is a legitimate purpose and that these records may be relevant
to that purpose. As to abuse of process, the Firm ﬁrst
states “we believe that the Court was actively misled
during the ex parte proceeding by false or misleading
misrepresentations made in a supporting declaration,”
docket no. 1 at 1 n.1, but it then states “[w]e do not
necessarily allege that the government is acting with
sinister motive,” id. at 11 n.4. This does not meet the
“heavy” burden, if alleging abuse of process, to show an
improper purpose like harassing the taxpayer or pressuring the taxpayer to settle a collateral dispute.
Next, the Firm argues that the information sought
by the summons is protected by attorney-client privilege. Attorney-client privilege is a ground courts have
recognized as a means of rebutting a prima facie case
under Powell. See United States v. El Paso Co., 682 F.2d
530, 538 (5th Cir. 1982) (citing Powell and stating that
El Paso Co., in opposing enforcement of an IRS summons, bore the burden of establishing its defense

App. 27
that attorney-client privilege protects the information
sought).
The attorney-client privilege covers conﬁdential
communications “for the purpose of obtaining legal
advice.” El Paso Co., 682 F.2d 530, 538 (5th Cir. 1982).
Although privileges pertaining to documents can be
asserted in an enforcement proceeding, the party seeking to assert the privilege must allege its applicability
with speciﬁcity as to each document. Id. at 539 (“[W]e
have made clear that the attorney-client privilege may
not be tossed as a blanket over an undifferentiated
group of documents.”).
“It is well established that ‘(t)he identity of a client
is a matter not normally within the privilege.’ ” In re
Grand Jury Proceedings in Matter of Fine, 641 F.2d
199, 204 (5th Cir. 1981) (quoting Frank v. Tomlinson,
351 F.2d 384, 384 (5th Cir. 1965)). “Despite the general
rule,” under a “limited and rarely available” exception,
“an attorney must conceal even the identity of a client,
not merely his communications.” In re Grand Jury Proceedings (“Jones”), 517 F.2d 666, 671 (5th Cir. 1975).
The exception applies “when the disclosure of the client’s identity by his attorney would have supplied the
last link in an existing chain of incriminating evidence
likely to lead to the client’s indictment.” In re Grand
Jury Proceedings, 680 F.2d 1026, 1027 (5th Cir. 1982).
In Jones, the court stated that “[t]he cases applying the exception have carved out only a limited and
rarely available sanctuary, which by virtue of its very
nature must be considered on a case-by-case basis. It

App. 28
could hardly be otherwise, since the purpose of privilege to suppress truth runs counter to the dominant
aims of the law.” Jones, 517 F.2d at 672; see generally
DeGuerin v. United States, 214 F. Supp.2d 726, 735-36
(S.D. Tex. 2002). (“If revelation of a client’s identity
would also reveal a privileged communication, both the
identity and the communication are privileged.”).
The Firm argues this exception applies because
the summons seeks the identities based on the advice
and services sought from the ﬁrm, and “when the speciﬁc requests are combined with the client identities
(not to mention the related client ﬁles), the net effect
is to identify individuals as well as the speciﬁc services
and structures they were provided.” Docket no. 5 at 14.
The Firm relies on an IRS enforcement case from the
Third Circuit, United States v. Liebman, 742 F.2d 807
(3d Cir. 1984), in which client identities were privileged. This was because the government was already
aware of the advice the law ﬁrm had provided its clients (that certain fees were tax deductible), so it “falls
within the situation where so much of the actual communication had already been established, that to disclose the client’s name would disclose the essence of a
conﬁdential communication.” Docket no. 5 at 13 (quoting Liebman, 742 F.2d at 809).
The Government distinguishes Liebman because
in that case the summons sought the identities of those
clients who had been advised that they could deduct,
rather than amortize, certain fees. Docket no. 7 at 10.
The Government argues this situation is distinct because the client class is deﬁned not by receipt of certain

App. 29
legal advice, but by whether the Firm “acquired or
formed any foreign identity, opened or maintained
any foreign financial account, or assisted in the conduct of any foreign ﬁnancial transaction on behalf of
the identiﬁed class.” Id. Thus, “for Taylor Lohmeyer’s
blanket ‘attorney-client privilege’ assertion to arguably apply, it would have to show that all members of
the identiﬁed class received the same privileged communications as Taxpayer-1, and that by disclosing the
identities of the identiﬁed class, it would be tantamount to disclosing the privileged communications.”
Id.
Separately, the U.S. argues the summons does not
seek privileged information because it does not seek legal advice and it was tailored to avoid the attorney-client privilege. Id. at 6 (citing, e.g., Seibu Corp. v. KPMG
LLP, 2002 WL 87461 (N.D. Tex. 2002) (“Where an attorney is functioning in some other capacity—such as
an accountant, investigator, or business advisory—
there is no privilege.”) (applying Texas law) (collecting
cases)). In an enforcement proceeding, the party seeking to assert privileges pertaining to documents must
allege speciﬁcally how the privilege applies to each
document. El Paso Co., 682 F.2d at 539 (5th Cir. 1982).
The Government contends the Firm must produce a
privilege log with speciﬁc objections to the summons’
requests, but the Firm has not done so.
Instead, at the status conference in this case, the
Firm sought and obtained leave to ﬁle an additional
memorandum on the attorney-client privilege issue.
This memorandum includes a supporting declaration

App. 30
from Fred Lohmeyer that purportedly details “the
types of legal services the ﬁrm provides, the types of
structures employed by the ﬁrm’s clients, and the nature of the ﬁrm’s relationships with its clients.” Docket
no. 8 at 7. The Firm also provided “a sampling of redacted client billing records further showing . . . that
the services were legal in nature, and that the legal
services received by the clients were similar to the legal services received by Taxpayer-1.” Id. Finally, the
Firm again argues that the client identities are privileged because “so much is already known about the
reasons the clients sought advice from the law ﬁrm and
the types of services that the law ﬁrm provides that the
government is already aware of the conﬁdential communications between the clients and the law ﬁrm.” Id.
at 9.
Here, the Firm’s attorney-client privilege arguments do not meet its burden to rebut a Powell showing, in large part because the Firm makes a blanket
assertion and does not produce a privilege log or similar device. See, e.g., Hanse v. United States, 2018 WL
1156201, at *6 (N.D. Ill. Mar. 5, 2018) (concluding
that a “blanket assertion of privilege,” which did not
properly assert attorney-client privilege on a document-by-document basis, was “insufﬁcient to challenge
the validity of the IRS summons”). These additional ﬁlings do not persuade the Court to the contrary. The
sample billing records only show, at most, that some
services were legal in nature and protected by privilege, but this does not show that the 32,000 responsive
documents the Firm claims to have are all privileged.

App. 31
Likewise, the new Lohmeyer declaration provides only
generalities that do not show the IRS already knows
so much that disclosure of client identities falls in the
narrow exception to the general rule that identities are
not privileged.
Ultimately, because blanket assertions of privilege
are disfavored, the Firm bears a heavy burden at this
stage, and the Firm relies only on a narrowly deﬁned
exception to the general rule that identities are not
privileged, the Firm does not carry its burden. As the
Government suggests, “[u]pon this Court ordering enforcement of the summons, if Taylor Lohmeyer wishes
to assert any claims of privilege as to any responsive
documents, it may then do so, provided that any such
claim of privilege is supported by a privilege log which
details the foundation for each claim on a documentby-document basis.” Docket no. 7 at 8. Whether certain
documents ﬁt the Liebman argument the Film advances is better decided individually or by discrete category.
CONCLUSION
Accordingly, the Court GRANTS the Government’s counter-petition to enforce its John Doe summons. The Court will retain jurisdiction in this case
pending any challenges by the Government of the
Firm’s privilege log, should the Firm produce one.
It is so ORDERED.

App. 32
SIGNED this 15th day of May, 2019.
/s/ Xavier Rodriguez
XAVIER RODRIGUEZ
UNITED STATES
DISTRICT JUDGE

App. 33
United States Court of Appeals
for the Fifth Circuit
--------------------------------------------

No. 19-50506
--------------------------------------------

TAYLOR LOHMEYER LAW FIRM P.L.L.C.,
Plaintiff—Appellant,
versus
UNITED STATES OF AMERICA,
Defendant—Appellee.
-------------------------------------------------------------------------------------------------------------------

Appeal from the United States
Western District of Texas
USDC 5:18CV1161-XR
-------------------------------------------------------------------------------------------------------------------

ON PETITION FOR REHEARING EN BANC
(Filed Dec. 14, 2020)
(Opinion – 04/24/2020, 5 Cir., ___, 957 F.3d 505)
Before BARKSDALE, HIGGINSON,
Judges.

AND

DUNCAN, Circuit

The court having been polled at the request of one
of its members, and a majority of the judges who are in
regular active service and not disqualiﬁed not having
voted in favor (Fed. R. App. P. 35 and 5th Circ. R. 35),
the petition for rehearing en banc is DENIED.

App. 34
In the en banc poll, eight judges voted in favor
of rehearing (Chief Judge Owen, and Judges Smith,
Elrod, Haynes, Willett, Ho, Engelhardt, and Oldham),
and nine judges voted against rehearing (Judges
Jones, Stewart, Dennis, Southwick, Graves, Higginson,
Costa, Duncan, and Wilson).
ENTERED FOR THE COURT:
/s/ Rhesa H. Barksdale
Rehsa Hawkins Barksdale
United States Circuit Judge

JENNIFER WALKER ELROD, Circuit Judge, joined by
OWEN, Chief Judge, and SMITH, WILLETT, ENGELHARDT,
and OLDHAM, Circuit Judges, dissenting from the denial of rehearing en banc:
The IRS served the Taylor Lohmeyer law ﬁrm with
a broad summons requesting the identities of the ﬁrm’s
clients who had engaged the ﬁrm to achieve certain offshore ﬁnancial arrangements from 1995 to 2017. The
IRS has traditionally served such summonses on ﬁnancial institutions and commercial couriers. Not lawyers. There is good reason to be wary of investigations
that exert pressure on lawyers. The relationship between a customer and a ﬁnancial institution or commercial courier plays little, if any, role in our system’s
ability to administer justice—but the same cannot be
said of the lawyer-client relationship. When the IRS
pursues John Doe summonses against law ﬁrms, serious tensions with the attorney-client privilege arise.

App. 35
Courts play a crucial role in moderating the executive
power with respect to a John Doe summons. See United
States v. Bisceglia, 420 U.S. 141, 146 (1975) (“Substantial protection is afforded by the provision that an Internal Revenue Service summons can be enforced only
by the courts.”).
Hearing this case en banc would have helped clarify the boundaries of attorney-client privilege in this
precarious area.1 I write to explain that the opinion
can and should be read—consistently with our existing
precedent—not to impose any new standard with respect to what is required for the attorney-client privilege to protect client identity.
*

*

*

Attorney-client privilege matters. And it matters
not only for particular parties but for the system of justice at large. “Its purpose is to encourage full and frank
communication between attorneys and their clients
and thereby promote broader public interests in the
observance of law and administration of justice.”
Upjohn Co. v. United States, 449 U.S. 383, 389 (1981).
Although the privilege may at times prevent the government from obtaining useful information, “this is
the price we pay for a system that encourages individuals to seek legal advice and to make full disclosure to the attorney so that the attorney can render
informed advice.” In re Grand Jury Subpoena for
1

Amici, the American College of Tax Counsel and the National Association of Criminal Defense Lawyers, both supported
rehearing en banc.

App. 36
Attorney Representing Criminal Defendant ReyesRequena, 926 F.2d 1423, 1432 (5th Cir. 1991) (ReyesRequena II) (quoting Matter of Grand Jury Proceeding,
Cherney, 898 F.2d 565, 569 (7th Cir. 1990)). See also In
re Grand Jury Proceedings, 517 F.2d 666, 674 (5th Cir.
1975) (Jones) (“The purpose of the [attorney-client]
privilege would be undermined if people were required
to conﬁde in lawyers at the peril of compulsory disclosure every time the government decided to subpoena
attorneys it believed represented particular suspected
individuals.”).
Tax, in particular, can be a complex area of law,
and our system relies on self-reporting and voluntary
compliance. Many individuals, especially with sophisticated business interests, seek assistance to navigate
the Internal Revenue Code. Tax attorneys can help clients comply—but only if they have the clients’ full disclosure.
We have previously held that client identities are
privileged where disclosure would reveal the client’s
conﬁdential motive for retaining an attorney. “If the
disclosure of the client’s identity will also reveal the
conﬁdential purpose for which he consulted an attorney, we protect both the conﬁdential communication
and the client’s identity as privileged.” Reyes-Requena
II, 926 F.2d at 1431. See also Jones, 517 F.2d at 674-75
(“The attorney-client privilege protects . . . the clients’
identities when such protection is necessary in order
to preserve the privileged motive.”).

App. 37
Our enduring precedent in Jones and Reyes-Requena II aligns with the long-established case law of
other circuits. See, e.g., Cherney, 898 F.2d at 568 (“The
client’s identity . . . is privileged because its disclosure
would be tantamount to revealing the premise of a conﬁdential communication: the very substantive reason
that the client sought legal advice in the ﬁrst place.”);
Tornay v. United States, 840 F.2d 1424, 1428 (9th Cir.
1988) (client identities are privileged when “disclosure
of the client’s identity or the existence of a fee arrangement would reveal information that is tantamount to
a conﬁdential professional communication”); United
States v. Liebman, 742 F.2d 807, 809 (3d Cir. 1984) (client identities are privileged “where so much of the actual attorney-client communication has already been
disclosed that identifying the client amounts to full
disclosure of the communication”); N.L.R.B. v. Harvey,
349 F.2d 900, 905 (4th Cir. 1965) (“The privilege may
be recognized when so much of the actual communication has already been disclosed that identiﬁcation of
the client amounts to disclosure of a conﬁdential communication.”).
The amici raised important concerns about how to
interpret the opinion in this case. However, the opinion
assures us, in its citations to Jones and Reyes-Requena
II, that it does not diverge from our settled precedent.
Taylor Lohmeyer Law Firm P.L.L.C. v. United States,
957 F.3d 505, 510-11 (5th Cir. 2020). I take the opinion
at its word. Whenever disclosing a client’s identity
would reveal the conﬁdential purpose for which the
client consulted the attorney, attorney-client privilege

App. 38
applies. This protection may obtain even if the government does not know the speciﬁc, substantive legal advice that was provided to the client.
In the district court, the enforcement order is currently stayed and the case has been administratively
closed to facilitate our review of the enforcement order.
Once our mandate issues, it may be that the case is
reopened and the stay lifted. If so, the May 15, 2019
enforcement order provides that the Lohmeyer law
ﬁrm will have the opportunity to produce a privilege
log, asserting privilege on particular responsive documents. If the law ﬁrm does so, the district court may
choose then to conduct an in camera review of those
documents.2 I am conﬁdent that any such review will
be guided by the following: “[i]f the disclosure of the
client’s identity will also reveal the conﬁdential purpose for which he consulted an attorney, we protect
both the conﬁdential communication and the client’s
identity as privileged.” Lohmeyer, 957 F.3d at 511
(quoting Reyes-Requena II, 926 F.2d at 1431).

2

The fact that the law ﬁrm made “blanket” assertions of
privilege was perhaps because the IRS demanded a very broad
array of documents to be identiﬁed using a client list. When a
summons is so structured, a blanket assertion of privilege may be
appropriate.

App. 39
26 U.S.C.A. § 7609.
Special procedures for third-party summonses
(a)

Notice. –
(1) In general. – If any summons to which this
section applies requires the giving of testimony on
or relating to, the production of any portion of
records made or kept on or relating to, or the production of any computer software source code (as
deﬁned in 7612(d)(2)) with respect to, any person
(other than the person summoned) who is identiﬁed in the summons, then notice of the summons
shall be given to any person so identiﬁed within 3
days of the day on which such service is made, but
no later than the 23rd day before the day ﬁxed in
the summons as the day upon which such records
are to be examined. Such notice shall be accompanied by a copy of the summons which has been
served and shall contain an explanation of the
right under subsection (b)(2) to bring a proceeding
to quash the summons.
(2) Sufﬁciency of notice. – Such notice shall
be sufﬁcient if, on or before such third day, such
notice is served in the manner provided in section
7603 (relating to service of summons) upon the
person entitled to notice, or is mailed by certiﬁed
or registered mail to the last known address of
such person, or, in the absence of a last known address, is left with the person summoned. If such
notice is mailed, it shall be sufficient if mailed to
the last known address of the person entitled to
notice or, in the case of notice to the Secretary
under section 6903 of the existence of a ﬁduciary
relationship, to the last known address of the

App. 40
ﬁduciary of such person, even if such person or ﬁduciary is then deceased, under a legal disability,
or no longer in existence.
(3) Nature of summons. – Any summons to
which this subsection applies (and any summons
in aid of collection described in subsection (c)(2)(D))
shall identify the taxpayer to whom the summons
relates or the other person to whom the records
pertain and shall provide such other information
as will enable the person summoned to locate the
records required under the summons.
(b) Right to intervene; right to proceeding to
quash. –
(1) Intervention. – Notwithstanding any other
law or rule of law, any person who is entitled to
notice of a summons under subsection (a) shall
have the right to intervene in any proceeding with
respect to the enforcement of such summons under section 7604.
(2)

Proceeding to quash. –
(A) In general. – Notwithstanding any
other law or rule of law, any person who is entitled to notice of a summons under subsection
(a) shall have the right to begin a proceeding
to quash such summons not later than the
20th day after the day such notice is given in
the manner provided in subsection (a)(2). In
any such proceeding, the Secretary may seek
to compel compliance with the summons.

App. 41
(B) Requirement of notice to person
summoned and to Secretary. – If any person begins a proceeding under subparagraph
(A) with respect to any summons, not later
than the close of the 20-day period referred to
in subparagraph (A) such person shall mail by
registered or certiﬁed mail a copy of the petition to the person summoned and to such ofﬁce as the Secretary may direct in the notice
referred to in subsection (a)(1).
(C) Intervention; etc. – Notwithstanding
any other law or rule of law, the person summoned shall have the right to intervene in any
proceeding under subparagraph (A). Such person shall be bound by the decision in such proceeding (whether or not the person intervenes
in such proceeding).
(c)

Summons to which section applies. –
(1) In general. – Except as provided in paragraph (2), this section shall apply to any summons
issued under paragraph (2) of section 7602(a) or
under section 6420(e)(2), 6421(g)(2), 6427(j)(2), or
7612.
(2) Exceptions. – This section shall not apply to
any summons –
(A) served on the person with respect to
whose liability the summons is issued, or any
ofﬁcer or employee of such person;
(B) issued to determine whether or not records of the business transactions or affairs of
an identiﬁed person have been made or kept;

App. 42
(C) issued solely to determine the identity of
any person having a numbered account (or
similar arrangement) with a bank or other institution described in section 7603(b)(2)(A);
(D)

issued in aid of the collection of –
(i) an assessment made or judgment
rendered against the person with respect
to whose liability the summons is issued;
or
(ii) the liability at law or in equity of
any transferee or ﬁduciary of any person
referred to in clause (i); or

(E) (i) issued by a criminal investigator of
the Internal Revenue Service in connection
with the investigation of an offense connected
with the administration or enforcement of the
internal revenue laws; and
(ii) served on any person who is not a
third-party recordkeeper (as deﬁned in
section 7603(b)).
(3) John Doe and certain other summonses.
– Subsection (a) shall not apply to any summons
described in subsection (f ) or (g).
(4) Records. – For purposes of this section, the
term “records” includes books, papers, and other
data.
(d) Restriction on examination of records. – No
examination of any records required to be produced
under a summons as to which notice is required under
subsection (a) may be made –

App. 43
(1) before the close of the 23rd day after the day
notice with respect to the summons is given in the
manner provided in subsection (a)(2), or
(2) where a proceeding under subsection (b)(2)(A)
was begun within the 20-day period referred to in
such subsection and the requirements of subsection (b)(2)(B) have been met, except in accordance
with an order of the court having jurisdiction of
such proceeding or with the consent of the person
beginning the proceeding to quash.
(e)

Suspension of statute of limitations. –
(1) Subsection (b) action. – If any person
takes any action as provided in subsection (b) and
such person is the person with respect to whose
liability the summons is issued (or is the agent,
nominee, or other person acting under the direction or control of such person), then the running of
any period of limitations under section 6501 (relating to the assessment and collection of tax) or
under section 6531 (relating to criminal prosecutions) with respect to such person shall be suspended for the period during which a proceeding,
and appeals therein, with respect to the enforcement of such summons is pending.
(2) Suspension after 6 months of service of
summons. – In the absence of the resolution of
the summoned party’s response to the summons,
the running of any period of limitations under section 6501 or under section 6531 with respect to
any person with respect to whose liability the
summons is issued (other than a person taking action as provided in subsection (b)) shall be suspended for the period –

App. 44
(A) beginning on the date which is 6 months
after the service of such summons, and
(B) ending with the ﬁnal resolution of such
response.
(f ) Additional requirement in the case of a
John Doe summons. – Any summons described in
subsection (c)(1) which does not identify the person
with respect to whose liability the summons is issued
may be served only after a court proceeding in which
the Secretary establishes that –
(1) the summons relates to the investigation of a
particular person or ascertainable group or class
of persons,
(2) there is a reasonable basis for believing that
such person or group or class of persons may fail
or may have failed to comply with any provision of
any internal revenue law, and
(3) the information sought to be obtained from
the examination of the records or testimony (and
the identity of the person or persons with respect
to whose liability the summons is issued) is not
readily available from other sources.
The Secretary shall not issue any summons described
in the preceding sentence unless the information
sought to be obtained is narrowly tailored to information that pertains to the failure (or potential failure) of the person or group or class of persons referred
to in paragraph (2) to comply with one or more provisions of the internal revenue law which have been
identiﬁed for purposes of such paragraph.

App. 45
(g) Special exception for certain summonses. –
A summons is described in this subsection if, upon petition by the Secretary, the court determines, on the basis of the facts and circumstances alleged, that there is
reasonable cause to believe the giving of notice may
lead to attempts to conceal, destroy, or alter records
relevant to the examination, to prevent the communication of information from other persons through
intimidation, bribery, or collusion, or to ﬂee to avoid
prosecution, testifying, or production of records.
(h)

Jurisdiction of district court; etc. –
(1) Jurisdiction. – The United States district
court for the district within which the person to
be summoned resides or is found shall have jurisdiction to hear and determine any proceeding
brought under subsection (b)(2), (f ), or (g). An order denying the petition shall be deemed a ﬁnal
order which may be appealed.
(2) Special rule for proceedings under subsections (f) and (g). – The determinations required to be made under subsections (f ) and (g)
shall be made ex parte and shall be made solely on
the petition and supporting afﬁdavits.

(i)

Duty of summoned party. –
(1) Recordkeeper must assemble records
and be prepared to produce records. – On
receipt of a summons to which this section applies for the production of records, the summoned
party shall proceed to assemble the records requested, or such portion thereof as the Secretary
may prescribe, and shall be prepared to produce

App. 46
the records pursuant to the summons on the day
on which the records are to be examined.
(2) Secretary may give summoned party
certiﬁcate. – The Secretary may issue a certiﬁcate to the summoned party that the period prescribed for beginning a proceeding to quash a
summons has expired and that no such proceeding
began within such period, or that the taxpayer
consents to the examination.
(3) Protection for summoned party who
discloses. – Any summoned party, or agent or employee thereof, making a disclosure of records or
testimony pursuant to this section in good faith reliance on the certiﬁcate of the Secretary or an order of a court requiring production of records or
the giving of such testimony shall not be liable to
any customer or other person for such disclosure.
(4) Notice of suspension of statute of limitations in the case of a John Doe summons. – In
the case of a summons described in subsection (f )
with respect to which any period of limitations has
been suspended under subsection (e)(2), the summoned party shall provide notice of such suspension to any person described in subsection (f ).
(j) Use of summons not required. – Nothing in
this section shall be construed to limit the Secretary’s
ability to obtain information, other than by summons,
through formal or informal procedures authorized by
sections 7601 and 7602.

